NO. 20-443
IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,

v.
DZHOKHAR A. TSARNAEV,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 17th day of December, 2020, copies of the Brief in Opposition were sent
to:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Respectfully submitted,

Arn Jacobsen

